WAIVER
SUPREME COURT OF THE UNITED STATES
1 9-762
Supreme Court Case No._
Owner Operator Independent Drivers Association, Inc., et al.

v.

Pennsylvania Turnpike Commission, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0

Please enter my appearance as Counsel of Record for all respondents.

0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Tom Wolf; Leslie S. Richards; Yassmin Gramian

O I am a member of the Bar of the Supreme Court of the United States.
❑ I am not presently a ember of the Bar of this Court. Should a response be requested, the response
will be filed by a g/ membor.
Signature
Date:

December 20, 2019

(Type or print) Name

Bruce P. Merenstein
0

Firm

Mr.

E Ms.

E Mrs.

E Miss

Schnader Harrison Segal & Lewis LLP

Address

1600 Market Street, Suite 3600

City & State

Philadelphia, Pennsylvania

Phone (215)

751-2249

Email

Zip

19103

bmerenstein@schnader.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Paul D. Cullen, Sr.; Kevin J. McKeon

